                        Management Information Report

          Compliance with SFFAs #17: “Accounting for Social Insurance”

                           Report 03-07, May 22, 2003 


                                    INTRODUCTION 


This management information report presents the results of the Office of Inspector
General’s (OIG) assessment of the Railroad Retirement Board’s (RRB) compliance with
requirements for disclosure of supplementary information for social insurance programs.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers retirement/survivor and unemployment/sickness insurance benefit
programs for railroad workers and their families under the Railroad Retirement Act
(RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs provide
income protection during old age and in the event of disability, death or temporary
unemployment and sickness. The RRB paid approximately $8.8 billion in benefits
during fiscal year (FY) 2002.

The Federal Accounting Standards Advisory Board (FASAB) is the authoritative
standards-setting body whose Statements on Federal Financial Accounting Standards
(SFFAS) lead the hierarchy of Federal accounting standards. FASAB’s Accounting and
Auditing Policy Committee has authority to provide guidance related to existing
accounting standards.

SFFAS #17 presents accounting standards for Federal social insurance programs,
including the benefit programs established under the RRA. The standard requires that
the financial reports of Federal agencies with responsibility for selected social insurance
programs:

   •	 reflect recognition of a liability when payments are due and payable to
      beneficiaries or service providers; and
   •	 disclose specific information assessing the long-term sustainability of the
      program including its ability to raise resources from future program participants to
      pay for benefits proposed to present participants.

Prior OIG audits of the RRB’s financial statements have identified areas of non-
compliance in both the form and content of the social insurance disclosures since the
agency was first required to publish them with its FY 2000 financial statements.

FASAB has proposed the reclassification of selected portions of the currently required
information from its current designation of “required supplementary stewardship
information” (RSSI) to an “integral part of the basic financial statements, essential for




                                             1

fair presentation in conformity with GAAP.”1 The reclassification issue is currently being
debated within the Federal accounting and auditing community.

The Bureau of the Actuary, under the direction of the agency’s Chief Actuary, supports
RRB operations by providing statistical and actuarial services. The bureau is
responsible for periodically determining the actuarial soundness of the benefit systems,
recommending certain railroad retirement tax rates, and calculating the amount of the
financial interchange with the social security system.

The Bureau of the Actuary also prepares the social insurance disclosures required
under SFFAS #17 and submits them to the RRB’s Bureau of Fiscal Operations for
inclusion in the agency’s published financial statements. The Bureau of Fiscal
Operations is responsible for the RRB’s internal and external financial reports, including
the agency’s annual financial statements.


Objective, Scope And Methodology

The objective of this evaluation was to assess compliance with the disclosure
requirements of SFFAS #17. The scope of this review was limited to the social
insurance disclosures as prepared for inclusion with the RRB’s financial statements for
the fiscal year ended September 30, 2002.

In order to achieve our objective, we:

          •   reviewed the draft RRA social insurance disclosures ;
          •   identifed applicable criteria and related guidance;
          •   considered prior audit opinions;
          •	 interviewed responsible management and staff in the RRB’s Bureau of the
             Actuary;
          •	 developed a detailed comparison of the draft disclosures with the provisions
             of SFFAS #17;
          •	 presented a detailed compliance assessment to responsible management
             prior to publication; and
          •	 evaluated the social insurance disclosures as published with the RRB’s FY
             2002 financial statements.


Our work was conducted in accordance with generally accepted auditing standards as
applicable to the objectives. Fieldwork was conducted at RRB headquarters during
October and November 2002 and March 2003 in conjunction with the OIG’s audit of the
RRB’s financial statements for the fiscal year ended September 30, 2002.


1
    Generally Accepted Accounting Principles.

                                                 2

The OIG’s fieldwork was timed to provide management with the opportunity to make
revisions prior to formal publication of the social insurance disclosures in the RRB’s
annual financial statements. The Bureau of the Actuary provided the draft disclosures
to the OIG on September 18, 2002; the OIG responded with a detailed assessment on
October 17, 2002. The RRB’s audited financial statements were released on January
30, 2003.

                                RESULTS OF REVIEW

The social insurance disclosures for the railroad retirement program, as published with
the RRB’s audited financial statements for the fiscal year ended September 30, 2002,
do not fully conform to FASAB requirements. We presented our findings to the Bureau
of the Actuary based on a review of the document in draft. The Bureau of the Actuary
reviewed the issues and made those revisions that they considered appropriate prior to
publication. We have presented our findings with respect to those matters that were not
adequately addressed by pre-publication revisions and no further recommendations for
corrective action have been offered.

The RRB has not published social insurance disclosures that fully conform to the
requirements of SFFAS #17 since such disclosures were first presented with the
agency’s FY 2000 financial statements. Agency management needs to be alert to the
ramifications of FASAB’s proposed reclassification of this information and take action to
ensure that the proposed revision to SFFAS #17 does not become an obstacle to an
unqualified audit opinion on future financial statements.

FY 2002 Social Insurance Disclosures

The RRB’s published statement of social insurance for the railroad retirement program
does not present projections for the required demographic groups and is based on cash
flow projections that include interest on intragovernmental borrowing. In addition, the
discussion of program sustainability focuses attention on selected program components
and away from the the financial soundness of the program as a whole. As a result, the
agency’s FY 2002 social insurance disclosures for the railroad retirement program do
not fully conform to the requirements of SFFAS #17.

SFFAS #17 established standards for reporting information on social insurance
programs. These standards are intended to assist users in evaluating operations and
aid in assessing the government’s financial condition and the sufficiency of future
budgetary resources. The standard requires that social insurance programs include in
their financial reports:

      •   a clear and concise description of the program,
      •   how the program is financed,
      •   how benefits are calculated, and
      •   the program’s financial and actuarial status.


                                             3

The standard requires inclusion of a statement, commonly called the “statement of
social insurance,” presenting the actuarial present values of future benefits,
contributions and tax income.

We reviewed the draft social insurance disclosures prepared for inclusion with the
RRB’s FY 2002 financial statements. We evaluated these draft disclosures against the
requirements of SFFAS #17, and advised the Bureau of the Actuary that they did not
meet the applicable requirements with respect to the reporting of financial and actuarial
status. We also noted that, in some respects, the narrative and graphic presentations
did not adequately address the objectives of SFFAS #17.

As a result of our discussions, the Bureau of the Actuary revised the draft social
insurance disclosures to offer a more clear and concise program description, and
improve the presentation of actuarial status by including comparative data for prior
years. However, the Bureau of the Actuary determined not to revise certain other
aspects of the presentation. As a result, the social insurance disclosures included with
the RRB’s published financial statements for the fiscal year ended September 30, 2002,
could not be considered in full conformance with FASAB standards.

The published statement of social insurance does not present projections for the
demographic groups specified by SFFAS #17. In addition, the published cash flow
projections are not presented net of interest on intragovernmental borrowing and
lending in accordance with the standard. We also believe that the discussion of
program sustainability does not achieve the objectives of the standard because it
focuses on the financing issues related to selected program components rather than the
railroad retirement program as a whole. Because these disclosures are presently
classified as RSSI, this assessment did not affect the auditors’ opinion on the financial
statements.2

A detailed discussion of our findings with respect to the FY 2002 demographic
presentation, cash flow projections and discussion of program sustainability follows.

Demographic Presentation

The statement of social insurance, as published with the RRB’s financial statements for
the fiscal year ended September 30, 2002, does not present projections for the
demographic groups specified by SFFAS #17.

SFFAS #17 requires presentation of a statement of actuarial present values of future
contributions, tax income and expenditures during the projection period to, from, or on
behalf of:
        •   current participants who have not yet attained retirement age,
        •   current participants who have attained retirement age,
        •   those who are expected to become plan participants.

2
 Required Supplementary Stewardship Information, or RSSI, is not part of the basic financial statements
and is subject to only limited review procedures.

                                                   4

The current actuarial model does not produce data in the demographic profile required
by the standard. The draft disclosures project income and expenditures for:
        •   retired employees and dependents,
        •   employees not yet retired and dependents, and
        •   new entrants and dependents.

Interest on Intragovernmental Borrowings

The statement of actuarial present values, as published with the RRB’s financial
statements for the fiscal year ended September 30, 2002, does not present projections
net of interest on intragovernmental borrowing and lending.

SFFAS #17 requires that cash flows be presented net of interest on intragovernmental
borrowing and lending. The RRB’s expenditures include interest on cash advances
from the U.S. Department of the Treasury. The agency incurs in excess of $200 million
per year in interest costs as a result of these borrowings.

Discussion of Program Sustainability

The description of the actuarial and financial status of the railroad retirement program,
as published with the agency’s financial statements for the fiscal year ended September
30, 2002, focuses attention on the performance of the individual components of the
railroad retirement program. As a result, it does not provide a cohesive, meaningful
summary of the program’s current financial and actuarial status and financial outlook.

SFFAS #17 requires that the entities responsible for social insurance programs include
in their financial reports, as required supplementary stewardship information, a clear
and concise description of the program’s financial and actuarial status. The description
should include a discussion of the long-term sustainability and the financial condition of
the program.

The RRB’s presentation:
    •   over-emphasizes the dynamics of individual trust funds;
    •	 does not convey the significance of the financial interchange with the Social
       Security system which provided approximately 34% of the RRA program’s
       financing during FY 2002; and
    •	 describes the relationship of employment taxes and taxable payroll to program
       solvency almost exclusively in terms of tier II tax rates.3




3
  The railroad retirement program is funded through a two-tier payroll tax system. Tier I taxes are
assessed at the same rate paid by employers and employees under the Social Security System. The tier
II tax is an additional payroll tax that is unique to the Railroad Retirement system.

                                                 5

The OIG’s recommendations for corrective action were made prior to publication of the
RRB’s FY 2003 financial statements. Accordingly, the foregoing findings pertain only to
those matters that were not adequately addressed by pre-publication revisions and no
further recommendations for corrective action are presented here.

Management’s Response

The Bureau of the Actuary disagrees with the findings as presented. In general, they
believe their position on demographics is defensible, the treatment of interest complies
with SFFAS #17 requirements and the OIG’s criticism of the discussion of program
sustainability is “subjective.”

The Bureau of the Actuary has submitted its rationale concerning the demographic
presentation to FASAB.

The full text of the Bureau of the Actuary’s response is included as Appendix I to this
report.

OIG’s Comments on the Bureau of the Actuary’s Response

In their response, the Bureau of Actuary detailed their position concerning the
demographic presentation and stated that they have submitted their rationale to FASAB.
However, their discussion of intragovernmental interest does not address the specific
transaction questioned in our report. In addition, they have dismissed our findings
concerning the sufficiency of the discussion of program sustainability as “subjective,"
which ignores the very specific criticisms that we offered.

The RRB’s discussion of program sustainability ignores the overall dependence of the
Railroad Retirement program on the solvency of the Social Security trust funds while
highlighting the financing features of the tier II annuity component. This is an important
aspect of the program’s current financial condition and future sustainability which should
be clearly communicated in the agency’s social insurance disclosures.


Proposed Reclassification Would Increase The Impact Of Non-Conformance

RRB management needs to ensure that the agency will not be adversely impacted by
FASAB’s proposed reclassification of the social insurance disclosures presented in
conjunction with its financial statements.

In December 2002, FASAB confirmed its previous tentative decision to classify the
statement of social insurance as an integral part of the basic financial statements, and
classify other information about social insurance as required supplementary information
effective with FY 2005 reporting. No changes to the form and content of the disclosures
have been proposed.




                                            6

Currently, all social insurance disclosures required by SFFAS #17 are classified as
required supplementary stewardship information (RSSI). For purposes of a financial
statement audit, RSSI is subject to only limited review procedures which consist
principally of inquiries of management regarding the methods of measurement and
presentation of the supplementary information. Under most circumstances, non-
conformance with form and content requirements will not impact the auditors’ opinion on
the financial statements.

Although not yet formally adopted, FASAB’s planned reclassification will make the
information about the RRB’s financial and actuarial status that is disclosed in the
statement of social insurance “essential for fair presentation in conformity with GAAP.”
As a result, the data presented will be subject to much more rigorous audit procedures.
In addition, deficiencies in the form and/or content of the statement of social insurance
could become the basis for an adverse or qualified opinion.

The OIG believes that the Bureau of Fiscal Operations needs to begin planning now to
ensure the agency’s ability to respond to a revised reporting standard. The limited
procedures that auditors apply to RSSI may not have disclosed all of the non-
conformances that will need to be addressed. In addition, the complexity of the
processes that support preparation of the statement of social insurance may preclude
revision on short notice.

Recommendation

We recommend that the Bureau of Fiscal Operations work with the Bureau of the
Actuary to ensure future compliance with the requirements of SFFAS #17. These
efforts should include:
   •	 obtaining a detailed comparison of SFFAS #17 requirements with the RRB’s
      current presentation;
   •   identifying any ambiguities in the standard that may require further research;
   •	 assessing the agency’s ability to comply with the existing requirements and the
      timeframe required to do so; and
   •	 determining whether the RRB will need to take action in advance of formal
      adoption of the FASAB modifications to ensure the agency’s ability to comply
      with the proposed revision.

Management’s Response

The Bureau of Fiscal Operations cited the Bureau of the Actuary’s position concerning
the compliance of the RRB’s FY 2002 social insurance disclosures but agreed to
implement the OIG’s recommendation “based on any new information from FASAB.”

The full text of the Bureau of Fiscal Operations’ response is included as Appendix II to
this report.



                                            7

OIG’s Comments on the Bureau of Fiscal Operations’ Response

We feel that the Bureau of Fiscal Operations’ response may be shortsighted in its
emphasis on information from FASAB. This response tends to focus the discussion on
the single issue that was submitted to that standard-setting body. The qualitative issues
pertaining to the content of the discussion of program sustainability are equally
important and weighed heavily in the OIG’s decision to assess the FY 2002 disclosures
as not fully conforming to SFFAS #17.




                                           8

